            Evaluation Report



 Fiscal Year 2013 Inspector General
  Statement on the Social Security
Administration’s Major Management
    and Performance Challenges




       A-02-14-14056 / December 2013
                                           December 6, 2013


The Honorable Carolyn W. Colvin
Acting Commissioner

Dear Ms. Colvin:

The Reports Consolidation Act of 2000 (Pub. L. No. 106-531) requires that Inspectors General
summarize and assess the most serious management and performance challenges facing Federal
agencies and the agencies’ progress in addressing them. This review is enclosed. The Reports
Consolidation Act also requires that the Social Security Administration (SSA) place the final
version of this Statement in its annual Agency Financial Report.

In Fiscal Year (FY) 2013, we continued our focus on the management and performance
challenges from the previous year. The challenges are listed below.

•   Reduce the Hearings Backlog and                       •   Invest in Information Technology
    Prevent its Recurrence                                    Infrastructure to Support Current and
                                                              Future Workloads
•   Improve the Timeliness and Quality of
    the Disability Process                                •   Strengthen the Integrity and Protection
                                                              of the Social Security Number
•   Reduce Improper Payments and Increase
    Overpayment Recoveries                                •   Improve Transparency and
                                                              Accountability
•   Improve Customer Service
                                                          •   Strengthen Strategic and Tactical
                                                              Planning

We used multiple sources to determine the status of each of the identified challenges. For
example, we used statistics reported by SSA and Office of the Inspector General audits of SSA’s
operations. We also used the FY 2013 independent auditor’s report, which contained the results
of SSA’s financial statement audit. The report concluded that SSA had two significant
deficiencies in internal control. These issues are discussed in detail in the enclosure.

My office will continue focusing on these issues in FY 2014. We will also continue assessing
SSA’s operations and the environment in which SSA operates to ensure our reviews focus on the
most salient issues facing the Agency.




               WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                         6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
Page 2 – The Honorable Carolyn W. Colvin

I look forward to working with you to continue improving the Agency’s ability to address these
challenges and meet its mission efficiently and effectively.

                                              Sincerely,




                                              Patrick P. O’Carroll, Jr.
                                              Inspector General

Enclosure
Fiscal Year 2013 Inspector General Statement on the Social
Security Administration’s Major Management and
Performance Challenges
A-02-14-14056
December 2013                                                              Office of Audit Report Summary

Objective                                Our Findings

To summarize and assess the most         While SSA made progress in FY 2013 in addressing these
serious management and performance       challenges, some improvements are needed.
challenges facing the Social Security
Administration (SSA).                    •   While SSA had a plan to eliminate the hearings backlog by
                                             2013, the number of pending cases has increased, and the
Background                                   average processing time remains above the 270-day goal.

The Reports Consolidation Act of 2000    •   SSA needs to address millions of initial disability and
requires that Inspectors General             reconsideration claims, as it still has backlogs of initial
summarize and assess the most serious        disability claims and continuing disability reviews.
management and performance
challenges facing agencies and the       •   SSA is one of the Federal agencies with a high amount of
agencies’ progress in addressing those       improper payments. SSA will need to take additional actions
challenges.                                  related to reducing improper payments.

In Fiscal Year (FY) 2013, we             •   The Agency faces several challenges as it pursues its mission to
continued our focus on the                   deliver Social Security services that meet the changing needs
management and performance                   and demographics of the American public.
challenges from FY 2012. The
challenges are: Reduce the Hearings      •   SSA faces major challenges to ensure it has sufficient IT
Backlog and Prevent its Recurrence;          controls, provides secure electronic services, and strategically
Improve the Timeliness and Quality of        plans to modernize its systems.
the Disability Process; Reduce
Improper Payments and Increase           •   SSA faces the challenges of protecting the SSN and properly
Overpayment Recoveries; Improve              posting wages reported under SSNs, which are critical to
Customer Service; Invest in                  ensuring eligible individuals receive the full benefits they are
Information Technology (IT)                  due.
Infrastructure to Support Current and
Future Workloads; Strengthen the         •   SSA faces a number of challenges in ensuring accountability,
Integrity and Protection of the Social       including concerns over its internal controls, systems security,
Security Number (SSN); Improve               and administrative cost allocations.
Transparency and Accountability; and,
Strengthen Strategic and Tactical        •   SSA needs a comprehensive vision of how it will provide
Planning.                                    services in the future.
ABBREVIATIONS
ALJ                 Administrative Law Judge
ASP                 Agency Strategic Plan
CAS                 Cost Analysis System
CDI                 Cooperative Disability Investigations
CDR                 Continuing Disability Review
CY                  Calendar Year
DCPS                Disability Case Processing System
DDS                 Disability Determination Services
DMF                 Death Master File
ESF                 Earnings Suspense File
FMFIA               Federal Managers’ Financial Integrity Act of 1982
FY                  Fiscal Year
GPRA                Government Performance and Results Act of 1993
GSA                 General Services Administration
IPERA               Improper Payments Elimination and Recovery Act of 2010
IPERIA              Improper Payments Elimination and Recovery Improvement Act of 2012
IT                  Information Technology
NCC                 National Computer Center
OASDI               Old-Age, Survivors and Disability Insurance
OMB                 Office of Management and Budget
Pub. L. No.         Public Law Number
SAA                 Senior Attorney Adjudicator
SSA                 Social Security Administration
SSI                 Supplemental Security Income
SSN                 Social Security Number




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)
                  REDUCE THE HEARINGS BACKLOG AND
                      PREVENT ITS RECURRENCE
CHALLENGE
While the Social Security Administration (SSA) had a plan to eliminate the hearings backlog by
2013, the number of pending cases has increased, and the average processing time remains
above the goal of 270 days.

Hearing Backlog: The Agency’s first goal in its Fiscal Year (FY) 2008-2013 Agency Strategic
Plan (ASP) is to eliminate the hearings backlog and prevent its recurrence. Its long-term
outcome is to reduce the number of pending hearings to 466,000 cases and reduce the average
processing time to 270 days by the end of FY 2013. However, SSA will not achieve the backlog
goal since there were about 848,000 pending claims, and average processing time was 382 days
at the end of FY 2013. In a FY 2011 report, we stated that the Agency would meet its hearings
backlog goal if it accurately predicted administrative law judge (ALJ) productivity and
availability, the number of hearing receipts, and senior attorney adjudicator (SAA) decisions.
While ALJ productivity and availability were within a few percentage points of Agency
projections, hearing receipts exceeded Agency projections by 15 percent or more each year, and
there were fewer SAA decisions than anticipated in FYs 2012 and 2013.

The Agency dropped the 466,000 pending claims backlog goal from its FY 2013-2016 ASP and
focused instead on reducing the average wait time for a hearing decision to 270 days by the end
of FY 2013. While the Agency will not meet the 270-day goal, it has reduced the average wait
times. For example, average processing time in FY 2008 was 514 days; by the end of FY 2013,
it was 382 days.

Adjudicatory Capacity: In FY 2007, the Agency issued an interim final rule allowing SAAs to
issue fully favorable on-the-record decisions, thereby conserving ALJ resources for the more
complex cases that require a hearing. In our June 2013 report on the Effects of the Senior
Attorney Adjudicator Program on Hearing Workloads, we stated that while the SAA Program
contributed to an increase in adjudicative capacity and improved average processing time over
the years, the number of SAA on-the-record decisions had been declining, and the quality of
these decisions had dropped. We recommended the Agency evaluate the benefits of conducting
focused quality reviews on ALJ and SAA on-the-record decisions. In this way, common on-the-
record issues can be identified and appropriate training developed.

Management Oversight: Our January 2013 audit, Identifying and Monitoring Risk Factors at
Hearing Offices, highlighted the Agency’s efforts to identify problematic workload trends among
ALJs. We recommended that this new monitoring approach be made a permanent part of
management oversight and the Agency create additional monitoring of hearing office trends that
may identify potential processing and management problems. In addition, we identified case
rotation problems at hearing offices in a March 2013 audit, Hearing Office Case Rotation among
Administrative Law Judges. We recommended that the Agency continue monitoring hearing



FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)         1
offices that had rotation issues and remind hearing office managers that ALJ coverage of remote
sites should be consistent with its rotation policy.

AGENCY ACTIONS
In the Agency’s FY 2013-2016 ASP, SSA identified four strategies to achieve its hearings
timeliness goal:

•   eliminate the oldest cases first;
•   expedite cases that do not require a hearing;
•   enhance electronic tools that improve productivity and quality; and
•   target national resources to meet workload demands.

In FY 2007, the Agency implemented an Aged Claim initiative that emphasized processing the
oldest claims in the backlog. In FY 2008, there were over 135,000 claims 900 days or older in
the backlog. With a sustained emphasis to process cases on a first-in, first-out basis, the Agency
eliminated the oldest cases in its backlog, and by the end of FY 2013, it had about 1,270 cases
that were 700 days or older. Since implementing the initiative, the Agency has processed nearly
900,000 aged cases that were 700 days or older.

The Agency hired 27 ALJs in FY 2013. However, in FY 2013, the Agency lost 86 ALJs through
attrition. In addition, Office of Disability Adjudication and Review staffing levels were down
about 4 percent from the start of the FY. As a result, the Agency will need to continue using
technology to increase adjudicatory capacity, including expanded use of video hearings and
video-only National Hearing Centers that process cases from some of the most heavily
backlogged hearing offices. In FY 2013, the Agency held over 179,000 video hearings, which is
over 25,700 more than the number of video hearings held in FY 2012.

The Agency has implemented a new “How MI Doing?” tool that provides each ALJ a list of
favorable cases reviewed by the Appeals Council under its own motion authority. This new
capability builds on the information already available through “How MI Doing?” It further
improves the feedback to ALJs, which should help them ensure their decisions comply with
policy.




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)         2
             IMPROVE THE TIMELINESS AND QUALITY OF
                    THE DISABILITY PROCESS

CHALLENGE
SSA needs to address millions of initial disability and reconsideration claims, as it continues to
have backlogs of initial disability claims and continuing disability reviews (CDR).

Disability Claims Backlog: Over the past 2 years, SSA has received a large influx of initial and
reconsideration claims. It received about 3.2 million initial and 832,000 reconsideration claims
in FY 2012 and approximately 3 million initial and 784,000 reconsideration claims in FY 2013.
As a result, SSA had a large number of initial claims pending completion. As of September
2013, SSA had over 698,000 initial disability claims pending.

DDS Personnel Issues: Some disability determination services (DDS) are facing high attrition
rates, hiring freezes, and employee furloughs, which affect SSA’s ability to process its disability
workload. Because of hiring freezes, DDSs are not allowed to replace lost staff. At the end of
FY 2013, Nevada was still furloughing DDS employees.

CDR Backlog: In our March 2010 report on Full Medical Continuing Disability Reviews, we
stated that SSA estimated a backlog of over 1.5 million medical CDRs at the end of FY 2010.
As a result, we estimated that from Calendar Years (CY) 2005 through 2010, SSA made benefit
payments of between $1.3 and $2.6 billion that it could have avoided had State DDSs conducted
the medical CDRs when they were due. SSA had a backlog of 1.2 million medical CDRs at the
end of FY 2012. As of the end of FY 2013, SSA had a backlog of 1.3 million medical CDRs.

AGENCY ACTIONS
SSA’s Strategy: In November 2010, SSA released its Strategy to Address Increasing Initial
Disability Claim Receipts to reduce the initial claims backlog to a pre-recession level of
525,000 by FY 2014. The multi-year Strategy included

•   increasing staffing in the DDS and Federal disability processing components;
•   improving efficiency through automation;
•   expanding the use of screening tools to assist in identifying claims likely to be allowed; and
•   refining policies and business processes to expedite case completion.




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)             3
As part of the Strategy, SSA created Extended Service Teams, in Arkansas, Mississippi,
Oklahoma, and Virginia to assist States by taking claims from those with the highest pending
levels. In FY 2010, SSA hired 237 additional employees in the Federal disability processing
components that support the DDSs.

SSA also provided funding for States to hire additional DDS employees. In total, SSA gained
more than 2,600 DDS employees in FYs 2009 and 2010. However, SSA did only limited critical
hiring from FYs 2011 to 2013. As a result, SSA lost over 2,800 DDS employees from FYs 2011
to 2013.

With the loss of DDS employees and a high level of initial disability claims receipts in FY 2013,
SSA no longer expects to achieve an initial claims pending level of 525,000 by FY 2014. In fact,
pending initial disability claims rose to over 698,000 in FY 2013, and SSA expects it to exceed
900,000 by the end of FY 2014. We are reviewing the actions SSA is taking to address the
initial disability claims backlog.

Disability Case Processing System: The Agency is developing a Disability Case Processing
System (DCPS), which is 1 system that will replace the existing 54 systems that support the
DDSs. DCPS will integrate case analysis tools and health information technology (IT). A
common case processing system will help SSA timely distribute policy changes. Per SSA, it will
provide consistent case processing abilities between the DDSs, which should have a positive
effect on processing times and the consistency of disability decisions. SSA began testing the
initial version of DCPS in the Idaho DDS in September 2012. In FY 2013, SSA tested, trained,
and implemented the second software release to the Idaho and Illinois DDSs. SSA expects to
test additional software releases in two other DDSs in FY 2014 with expanded implementation
through FY 2016.

Cooperative Disability Investigations: We have continued working with SSA to address the
integrity of the disability programs through Cooperative Disability Investigations (CDI). The
mission of the 25 CDI units is to obtain evidence that can resolve questions of fraud in SSA’s
disability claims. The program is managed jointly by SSA’s Office of Operations and the Office
of the Inspector General. Since the program’s inception in FY 1998 through the end of FY 2013,
its efforts have resulted in $2.5 billion in projected savings to the title II Disability Insurance and
title XVI Supplemental Security Income (SSI) programs, as well as over $1.6 billion in projected
savings to non-SSA programs.




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)             4
            REDUCE IMPROPER PAYMENTS AND INCREASE
                  OVERPAYMENT RECOVERIES
CHALLENGE
SSA is responsible for issuing over $800 billion in benefit payments annually to about 60 million
people. Given the large overall dollars involved in SSA’s payments, even the slightest error in
the overall process can result in millions of dollars in over- or underpayments.

SSA is one of the Federal agencies with a high amount of improper payments. In FY 2012, the
last FY for which data were available, SSA reported about $6.8 billion in over- or
underpayments, and the Agency incurred an administrative cost of $0.07 for every overpayment
dollar it collected. Further, SSA needs to adhere to requirements in Executive Order 13520 –
Reducing Improper Payments – and the Improper Payments Elimination and Recovery Act of
2010 (IPERA) (Pub. L. No. 111-204) to address improper payments. Additionally, the Office of
Management and Budget (OMB) recently issued guidance on implementing the Improper
Payments Elimination and Recovery Improvement Act of 2012 (IPERIA) (Publ. L. No. 112-248),
so SSA will need to take additional actions related to reducing improper payments.

Improper Payment Rates: Workers, employers, and taxpayers who fund SSA’s programs
deserve to have their tax dollars effectively managed. As a result, SSA must be a responsible
steward of the funds entrusted to its care and minimize the risk of making improper payments.
SSA strives to balance its service commitments to the public with its stewardship
responsibilities. However, given the size and complexity of the programs the Agency
administers, some payment errors will occur.

For example, according to SSA, in FY 2012,

•   the Old-Age, Survivors and Disability Insurance (OASDI) overpayment error was
    $1.7 billion or 0.2 percent of program outlays, and the underpayment error was $740 million
    or 0.1 percent of program outlays and

•   the SSI overpayment error was $3.4 billion or 6.3 percent of program outlays, and the
    underpayment error was $948 million or 1.8 percent of program outlays.

For FYs 2012 through 2014, SSA’s goal is to maintain OASDI payment accuracy at 99.8 percent
for both over- and underpayments; and for SSI, the Agency’s goal is to achieve over- and
underpayment accuracy rates of 95 and 98.8 percent, respectively.

Executive Order 13520, IPERA, and IPERIA: In November 2009, the President issued
Executive Order 13520 on reducing improper payments; and in March 2010, OMB issued
guidance for implementing it. Also, in July 2010, IPERA was enacted. In April 2011, OMB
issued guidance on implementing IPERA. As a result, all agencies with high-risk programs—
those with significant improper payments—are required to intensify their efforts to eliminate
payment errors. OMB designated SSA’s programs as high-risk. In January 2013, IPERIA was


FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)         5
enacted; and it requires, among other things, that such agencies as SSA use available databases
with relevant information on eligibility to prevent improper payments.

Overpayment Recoveries: Once SSA determines an individual has been overpaid, it attempts
to recover the overpayment. According to SSA, in FY 2013, the Agency recovered $3.46 billion
in overpayments at an administrative cost of $0.07 for every dollar collected and ended the FY
with an uncollected overpayment balance of $16.4 billion.

AGENCY ACTIONS
Improper Payment Causes: One of the major causes of improper payments in the OASDI
program is benefit computation error. SSA has developed automated tools to address the more
troublesome computation issues. Another major cause of improper payments in the SSI program
is recipients’ failure to provide accurate and timely reports of new or increased wages. In
response, SSA developed a monthly wage reporting system incorporating touch-tone and
voice-recognition telephone technology. SSA also implemented its Access to Financial
Institutions project to reduce SSI payment errors by identifying undisclosed financial accounts
with balances that placed recipients over the SSI resource limit.

Debt Collection Tools: SSA uses a variety of methods to collect the debt related to
overpayments. Collection techniques include internal methods, such as benefit withholding and
billing with follow up. In addition, SSA uses external collection techniques authorized by the
Debt Collection Improvement Act of 1996 (Pub. L. No. 104-134) for OASDI debts and the Foster
Care Independence Act of 1999 (Pub. L. No. 106-169) for SSI debts. These debt collection tools
include the Treasury Offset Program, credit bureau reporting, administrative wage garnishment,
and Federal Salary Offset.

CDRs: The CDR is a powerful tool for reducing improper payments. Through completion of
CDRs, SSA periodically verifies that individuals are still disabled and eligible for disability
payments. Available data indicate that SSA saves about $9 for every $1 spent on CDRs,
including Medicare and Medicaid program effects.




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)         6
                         IMPROVE CUSTOMER SERVICE
CHALLENGE
The Agency faces several challenges as it pursues its mission to deliver Social Security services
that meet the changing needs and demographics of the American public.

Increased Workload with Reduced Staff: Each day, almost 182,000 people visit SSA field
offices, and more than 445,000 people call SSA for a variety of services, such as filing a claim,
updating information, and asking questions. In FY 2013, SSA completed over 5 million
retirement, survivor, and Medicare claims; over 3.1 million Social Security and SSI initial
disability claims; and 231,000 SSI aged claims.

In the last 3 years, SSA has lost over 10,000 employees. The Acting Commissioner reports these
losses have occurred unevenly nationwide, threatening some offices’ viability. SSA’s
diminished workforce, coupled with hiring restrictions, comes at a time when demands for its
services are as high as they have ever been.

The projected retirement of its employees continues to present a challenge to SSA’s customer
service capability. SSA estimates that about 45 percent of its employees, including 60 percent of
its supervisors, will be eligible to retire by FY 2022. SSA also projects it will lose more than
2,000 employees, annually, over the next 10 years, because of retirement. This loss of
institutional knowledge may adversely affect SSA’s ability to deliver the quality service the
public expects. In its May 2013 report on management challenges SSA faces in meeting its
mission-related objectives, GAO noted that despite the ongoing retirement wave and hiring
freeze, SSA has not updated its succession plan since 2006.

Changing Customer Expectations: Technology is rapidly changing, and the public expects to
complete more business with SSA online. Internet services and the use of mobile devices and
social media continue to increase. At the same time, the nation is becoming more diverse. The
Census Bureau projects the U.S. Hispanic population will nearly triple, from 46.7 to
132.8 million, between 2008 and 2050. As SSA enhances its service delivery strategies, it must
consider the increasing multilingual and multicultural population it serves.

Budget: The Acting Commissioner has acknowledged that SSA is facing its toughest fiscal
challenge in nearly 30 years. SSA has stated that the current level of funding will lead to a loss
of employees. Consequently, SSA expects its national 800-number service to deteriorate
because it does not have a sufficient number of employees to answer calls. For example, the
national 800-number average telephone wait time exceeded 10 minutes in FY 2013, an increase
of over 5 minutes from FY 2012.

With additional budget cuts, SSA believes its public service will decline, and improper payments
will rise. To reduce costs, SSA reported it consolidated 44 field offices, closed 503 contact
stations, and put on hold its plans to open 8 hearing offices and 1 teleservice center. Further,
SSA has reduced the hours that field offices are open to the public, restricted hiring, and reduced
overtime.

FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)            7
Direct Deposit: SSA uses direct deposit for about 98 percent of Social Security benefits and
94 percent of SSI payments. In October 2011, we began tracking allegations that indicated
individuals other than the beneficiaries or their representatives had directed benefit payments
away from the beneficiaries’ bank accounts. As of September 30, 2013, we had received over
42,000 reports concerning inappropriate changes to beneficiaries’ direct deposit accounts.

Representative Payment Program: Providing oversight to ensure representative payees
properly manage the Social Security benefits and SSI payments of vulnerable beneficiaries and
recipients is a critical customer service performed by SSA. SSA appoints representative payees
to receive and manage the benefits of beneficiaries and recipients who are incapable of managing
or directing the management of their finances because of their age or mental or physical
impairment. SSA reported approximately 5.9 million representative payees serve approximately
8.4 million beneficiaries and recipients and manage about $72 billion in payments. Our audits
and investigations continue identifying problematic representative payees.

AGENCY ACTIONS
SSA has implemented the following initiatives to improve customer service: establishing the
Office of the Chief Strategic Officer, developing a service delivery plan, clarifying
correspondence, expanding the use of online services, improving telephone services, expanding
video services, strengthening controls over direct deposit, and improving the Representative
Payment Program. The Office of the Chief Strategic Officer should help SSA plan for the future,
taking into account customer expectations and available resources. We discuss this further in the
Strengthen Strategic and Tactical Planning section of this report, which begins on page 16.

Service Delivery Plan: In February 2013, SSA published its Service Delivery Plan, which
identified 22 key initiatives for providing the American public with quality service over the next
10 years. The Plan highlights SSA’s commitment to improving (1) services readily used by the
public, (2) the systems it uses to serve the public, and (3) operations’ payment accuracy and
efficiency.

More recently, SSA decided not to move forward with the Service Delivery Plan. It is working
with the National Academy of Public Administration to develop a new long-term plan. SSA
intends to publish the long-range plan in late 2014.

Correspondence: SSA mails approximately 250 million notices to the public each year, making
correspondence one of SSA’s most common forms of service delivery. SSA intends to improve
its notices to ensure they are clear and concise. SSA planned improvements for the readability,
clarity, and tone of SSI notices. Additionally, SSA reported it is improving language for its
highest volume notices, such as the letter acknowledging receipt of a hearing request.

Online Services: One of SSA’s priorities is to provide the public more service options through a
wide range of online services. In FY 2013, SSA reported it would explore ways of expanding
the use of the Spanish iClaim to international users by including features to collect information
related to foreign work, international direct deposit, and U.S. residency.



FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)            8
SSA continues expanding its nation-wide marketing campaign for its Internet services through
public service announcements. SSA also uses social media and targeted keyword searches on
Google and Bing to direct the public to its online service options. In May 2013, SSA launched a
mobile-friendly Website for smartphone users. In August 2013, SSA launched a new tablet-
friendly public Social Security Website.

In January 2013, SSA expanded its services with a MySocialSecurity account—a personalized
online account through which more than 60 million Social Security beneficiaries and SSI
recipients can instantly access their benefit verification letter, payment history, and earnings
records. Beneficiaries can also change their address and start or change direct deposit
information online.

Telephone Services: SSA serves about 60 million people per year over the telephone. SSA is
replacing its national 800-number infrastructure with a new system, the Citizen Access Routing
Enterprise 2020. SSA reports the new technology will help eliminate lengthy navigation menus,
better forecast call volumes, anticipate staffing needs, and distribute incoming calls across the
network so callers can reach an agent more quickly.

Video Services: SSA is expanding its video services for individuals living in rural areas or
places that do not have public transportation. Video services enable SSA to provide service to
people at such sites as hospitals, libraries, community centers, American Indian Tribal centers,
and homeless shelters. Video services also reduce travel costs and lost work hours. As of
December 2012, SSA had expanded its video services to 262 additional field offices, for a total
of 299 locations. Additionally, SSA provided 20 video units for DDSs.

Direct Deposit: In response to fraudulent activity in the direct deposit area, SSA has taken steps
to strengthen the controls over the processes used to change beneficiaries’ direct deposit account
information. In FY 2013, SSA revised its policy for verifying the identities of callers who
request to establish, change, or cancel direct deposit payments. Additionally, SSA allowed
beneficiaries to block direct deposit changes.

Representative Payment Program: SSA continues a pilot program to ensure individuals
convicted of committing or attempting to commit certain crimes do not serve as a representative
payee. By the end of FY 2013, SSA’s Philadelphia Region had barred over 170 individuals from
serving as a representative payee because they had committed 1 or more crimes. To support the
pilot program, in FY 2013, SSA implemented an electronic system to obtain third-party criminal
information.




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)          9
  INVEST IN INFORMATION TECHNOLOGY INFRASTRUCTURE
      TO SUPPORT CURRENT AND FUTURE WORKLOADS

CHALLENGE
SSA faces major challenges to ensure it has sufficient IT controls, provide secure electronic
services to meet the growing needs of its customers, and strategically plan to modernize its
systems for future service delivery.

SSA faces the challenge of how best to use technology to meet its increasing workloads with
limited budgetary and human resources. Further, SSA will not be able to manage its current and
future workloads without the proper IT infrastructure. The Agency uses a variety of
technologies, including telephone service, the Internet, and videoconferencing, to deliver service
to its customers. We have concerns regarding the Agency’s IT physical infrastructure;
development and implementation of secure electronic services; and logical access controls and
security of sensitive information.

IT Physical Infrastructure: SSA’s National Computer Center (NCC), built in 1979, houses the
infrastructure that supports the Social Security programs provided to the public and other
services provided to Federal, State, international, and private agencies. Increased workloads and
growing telecommunication services have strained the NCC’s ability to support the Agency’s
business. SSA’s primary IT investment over the next few years is replacing the NCC. However,
the Agency has projected that its new facility will not be operational until 2016.

Development and Implementation of Secure Electronic Services: SSA must provide
additional electronic services to meet its customers’ growing needs. For FY 2012, SSA had a
goal to have 42 percent of its fourth quarter claims filed online. For FY 2013, the fourth quarter
goal for online claims was 48 percent. During the fourth quarter of FY 2012, Agency customers
filed 44 percent of claims online. During the fourth quarter of FY 2013, Agency customers filed
51 percent of claims online.

While expanding its inventory of electronic services, the Agency needs to ensure its existing and
future electronic services are secure. In January 2013, SSA expanded its MySocialSecurity
online portal; however, fraudulent accounts were established to redirect Social Security benefits
to unauthorized bank accounts. As of the end of FY 2013, we had received—from SSA and
other sources—more than 22,000 fraud allegations related to MySocialSecurity accounts.

Logical Access Controls and Security of Sensitive Information: SSA’s FY 2009, 2010, and
2011 Financial Statement Audits identified a significant deficiency in the Agency’s controls over
access to its sensitive information. For example, SSA did not consistently comply with policies
and procedures to periodically reassess the content of security access given to its employees and
contractors. Moreover, some employees and contractors had greater access to systems than they
needed to perform their jobs. Additionally, certain configurations increased the risk of
unauthorized access to key financial data and programs. The FY 2012 Financial Statement Audit
identified additional concerns and raised the significant deficiency to a material weakness.


FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)       10
While SSA made significant efforts to strengthen controls over its systems and address
weaknesses, the auditor’s FY 2013 testing continued to identify control issues in both design and
operation of key controls. In its audit, the auditor identified four deficiencies that, when
aggregated, are considered to be a significant deficiency in the areas of Information Systems
Controls.

AGENCY ACTIONS
IT Physical Infrastructure: SSA has taken steps to address its IT infrastructure challenge and
the NCC’s sustainability through 2016. For example, SSA conducts regular tours of the
buildings with technical experts to identify needed repairs or future replacement projects.

In February 2009, SSA received $500 million in American Recovery and Reinvestment Act
(Pub. L. No. 111-5) funding to replace its NCC. In August 2011, the General Services
Administration (GSA) purchased a site for SSA’s new data center. In January 2012, GSA and
SSA awarded a contract for the design and construction of a new data center. The planned
completion of construction is December 2014. After completion of construction and
commissioning, IT migration to the new data center will take an additional 22 months. The new
data center is expected to be operational in 2016.

Development and Implementation of Secure Electronic Services: At present, SSA offers the
public 28 electronic services. Further, SSA has researched Internet authentication solutions to
secure online initiatives, such as Ready Retirement, replacement Social Security number (SSN)
cards, and other automated services.

In June 2013, SSA established a dedicated MySocialSecurity help desk through the national
800-number to assist the public with MySocialSecurity-related issues. The Agency will also
assist with MySocialSecurity at a designated link called MySocialSecurity Contact Us.

Logical Access Controls and Security of Sensitive Information: SSA developed the Profile
Quality Program, a group of projects to limit access to the Agency’s electronic resources,
including sensitive data. As part of this Program, SSA implemented several procedures related
to logical access controls and the security of sensitive information. Moreover, SSA implemented
Web-based tools for automating SSA’s review process of access to sensitive information.

Finally, SSA developed teams to address the other areas that comprise the material weakness in
information security. SSA implemented additional policies and procedures and conducted
security tests to help resolve the material weakness. This included, but was not limited to,
policies and procedures over software change control, configuration management, authorization
of hardware and software, and penetration testing.




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)      11
       STRENGTHEN THE INTEGRITY AND PROTECTION OF
              THE SOCIAL SECURITY NUMBER

CHALLENGE
Protecting the SSN and properly posting the wages reported under SSNs are critical to ensuring
eligible individuals receive the full benefits they are due.

In FY 2013, SSA completed approximately 5.8 million original and 10.3 million replacement
SSN cards. In addition, the Agency received and processed about 250 million wage items,
totaling approximately $5.7 trillion in earnings. Protecting the SSN and properly posting the
wages reported under SSNs are critical to ensuring SSN integrity and eligible individuals receive
the full benefits due them.

SSN Use: The SSN is heavily relied on as an identifier and is valuable as an illegal commodity.
Accuracy in recording workers’ earnings is critical because SSA calculates future benefit
payments based on the earnings an individual accumulates over his/her lifetime. As such,
properly assigning SSNs only to those individuals authorized to obtain them, protecting SSN
information once the Agency assigns the numbers, and accurately posting the earnings reported
under SSNs are critical SSA missions.

SSN Misuse: To its credit, SSA has implemented numerous improvements in its enumeration
process. However, given the preponderance of SSN misuse and identity theft in U.S. society, we
continue to believe protection of this critical number is a considerable challenge for SSA.
Unfortunately, once SSA assigns an SSN, it has no authority to control the collection, use, and
protection of the number by other public and private entities. Our audit and investigative work
have shown that the more SSNs are unnecessarily used, the higher the probability that they could
be used to commit crimes throughout society. The Federal Trade Commission has estimated that
as many as 10 million Americans have their identities stolen each year.

We remain concerned about SSN misuse by noncitizens who are not authorized to work in the
United States as well as the misuse of SSNs for identity theft purposes. The SSNs of deceased
individuals are also vulnerable to misuse. As such, the public release of the Death Master File
(DMF) raises concerns. To the extent possible, we believe SSA should limit public access to the
DMF to only what is required by law and take steps to ensure its accuracy.

Earnings: SSA’s programs depend on earnings information to determine whether an individual
is eligible for benefits and to calculate the amount of benefit payments. Properly posting
earnings ensures eligible individuals receive the full retirement, survivors, and/or disability
benefits due them. If employers report earnings information incorrectly or not at all, SSA cannot
ensure all individuals entitled to benefits are receiving the correct payment amounts.

SSA spends scarce resources correcting earnings data when employers report incorrect
information. The Earnings Suspense File (ESF) is the Agency’s repository of wage reports on
which wage earners’ names and SSNs fail to match SSA’s records. Per the latest available data,
the ESF had accumulated over $1.1 trillion in wages and 326 million wage items for

FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)      12
Tax Years 1937 through 2011. In Tax Year 2011 alone, 7.1 million wage items representing
$70 billion were posted to the ESF. From Tax Years 2001 to 2011, the ESF grew by
approximately $734.5 billion in wages and 91.9 million wage items, representing about
65 percent of the total wages and 28.1 percent of the total wage items.

We are concerned about the size and growth of the ESF as it reached over $1 trillion in wages.
Therefore, in 2014, we plan to review the steps SSA has taken to reduce the ESF’s size and
growth.

AGENCY ACTIONS
SSA continues improving its enumeration process. For example, SSA has established
enumeration centers in some cities —most recently Social Security Card Centers in San Diego
and El Cajon, California —that focus exclusively on assigning SSNs and issuing SSN cards.
Additionally, SSA routinely enhances its software program for SSN card issuance. This allows
SSA to enforce more enumeration policies and decreases the risk of improper issuance of SSNs
and SSN cards, and also reduces SSN fraud. SSA has also strengthened its policy for processing
requests for the SSN printout. SSA’s new policy requires that requesters provide the same
evidentiary documents as required for processing a request for a replacement SSN card.

SSN Verification Service: SSA has taken steps to reduce the size and growth of the ESF. The
Agency offers employers the ability to verify the names and SSNs of their employees using the
Agency’s SSN Verification Service, which is an online verification program, before reporting
wages to SSA. In FY 2013, approximately 38,500 registered employers submitted over
111 million verifications.

E-Verify: SSA also supports the Department of Homeland Security in administering the
E-Verify program, which assists employers in verifying the employment eligibility of newly
hired employees. According to DHS, over 470,000 employers have enrolled to use E-Verify,
and these employers submitted over 20 million queries in FY 2013.

While SSA cannot control all the factors associated with erroneous wage reports, it may be able
to improve wage reporting by informing employers about potential SSN misuse cases,
identifying and resolving employer reporting problems, encouraging greater use of the Agency’s
employee verification programs, and enhancing employee verification feedback to provide
employers with sufficient information on potential employee issues. SSA can also improve
coordination with other Federal agencies with separate, yet related, mandates. For example, the
Agency needs to work with the Internal Revenue Service to achieve more accurate wage
reporting.




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)        13
          IMPROVE TRANSPARENCY AND ACCOUNTABILITY
CHALLENGE
SSA faces a number of challenges ensuring accountability, including concerns over its internal
controls, systems security, and administrative cost allocations.

Federal Managers’ Financial Integrity Act of 1982: OMB Circular A-123, Revised,
Management’s Responsibility for Internal Control, defines internal control as “…tools to help
program and financial managers achieve results and safeguard the integrity of their programs.”
The Circular provides guidance on using the range of tools at the disposal of agency managers to
achieve desired program results and meet the requirements of the Federal Managers’ Financial
Integrity Act of 1982 (FMFIA) (Pub. L. No. 97-255). FMFIA encompasses accounting and
administrative controls, including program, operational, and administrative areas as well as
accounting and financial management.

The FY 2013 Independent Auditor’s Report contained two significant deficiencies in internal
control. The full text of the report can be found in SSA’s FY 2013 Agency Financial Report.
We summarize the two control weaknesses below.

Calculation, Recording, and Preventing Overpayments: In FY 2012, the auditor reported a
significant deficiency related to Benefit Payment Oversight. In FY 2013, the auditor did not
identify this significant deficiency. However, it identified three deficiencies in internal control
that, when aggregated, were considered to be a significant deficiency in internal controls related
to calculation, recording and prevention of overpayments. Specifically, the auditor noted
calculations errors in 38 percent of the overpayment items selected in a statistical sample.
Although the impact of these errors was not deemed material, these errors evidence further
control weaknesses in the overpayment process. In addition, SSA has a system limitation where
overpayment installments extending past year 2049 are not tracked and reported systematically.
Finally, SSA was not reconciling data between systems to detect discrepancies, which could lead
to payment errors.

Information System Controls: In FYs 2010 and 2011, the auditor reported a significant
deficiency in SSA’s internal control over information security in its Opinion on Management’s
Assertion about the Effectiveness of Internal Control. In FY 2012, the auditor escalated the
deficiency and determined there was a material weakness in internal control related to
information security in the areas of monitoring, logical access, and configuration controls. It is
the auditor’s opinion that SSA made significant progress in strengthening controls over its
information systems to address the material weakness reported in FY 2012.

While SSA made these significant efforts to strengthen controls over its systems and address
weaknesses, the auditor’s FY 2013 testing continued to identify control issues in both design and
operation of key controls. In its audit, the auditor identified four deficiencies that, when
aggregated, are considered to be a significant deficiency in the areas of information systems
controls. The deficiencies noted were in the following areas.


FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)            14
•   Threat Identification and Vulnerability Management
•   Change Management
•   Mainframe Security
•   Access Controls/Segregation of Duties.

Administrative Cost Allocation: We also believe SSA can bring greater accountability to its
administrative cost allocation. The Social Security Act (Pub. L. No. 74-271) authorizes SSA to
allocate administrative costs to the four trust funds for which it provides administrative support:
Retirement and Survivors, Disability, Hospital, and Supplementary Medical Insurance. SSA
uses its Cost Analysis System (CAS) to allocate administrative costs to these four trust and
general fund programs administered by SSA, such as the SSI program.

In FY 2012, our contractor completed a series of audits that examined SSA’s CAS. Our
contractor found CAS had certain risks that SSA needed to address to ensure it provided viable
calculations of SSA’s administrative costs. For example, SSA had not updated the CAS cost
allocation methodology in over 30 years to account for changes in business processes, system
technology, or Federal accounting standards. The failure to periodically revisit and update the
cost allocation methodology could result in costing assumptions and cost factors that are no
longer valid or accurate. Consequently, the equitable and appropriate allocation of SSA’s
administrative costs to the trust funds could be at risk.

AGENCY ACTIONS
The Acting Commissioner has made addressing both the material weakness and significant
deficiency reported in SSA’s FY 2012 Performance and Accountability Report a priority.
Specifically, SSA has established a protocol to control and follow up on discrepancies or
inaccuracies in benefit payments to ensure they are corrected. Effective FY 2013, SSA closely
tracks all high-risk error cases identified by the Office of Quality Review to ensure the payment
errors are corrected accurately and timely.

Most recently, SSA hired a Deputy Chief Information Officer, a position that had been vacant at
SSA. The role of the new Deputy Chief Information Officer is the Agency’s IT strategic
planning, alignment of IT investments to the Agency’s strategic goals and objectives, and
management of technology spending and capital planning.

SSA reported it achieved a number of accuracy and process improvements to CAS this year,
which include the following.

•   A process that more exactly determines costs by workload and more precisely allocates these
    workloads’ costs among the programs that each workload supports.
•   Automating calculations that were manual.
•   Implementing a more detailed annual process to reconcile cost accounting data (budgetary
    accounting basis) to accrual-based expenses to ensure there are no material differences.


FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)         15
•   Forming a standing executive governance committee to evaluate current methods,
    instructions, and workloads for component and Agency-level cost accountability processes to
    account for changes in business processes, system technology, and Federal accounting
    standards. The workgroup’s activities include examining workload counts, work time, and
    payroll cost assignment by workload and function, and assignment of other costs by
    workload and function.




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)    16
       STRENGTHEN STRATEGIC AND TACTICAL PLANNING
CHALLENGE
While near-term planning is important, SSA needs long-range plans that address its long-term
challenges, including a rising workload, a decrease in experienced staff, overly complex
program policies, and a rising need to provide more services electronically.

Rising Workload: The number of individuals filing for benefits has increased, and SSA
predicts it will continue increasing by the millions. Over the next 20 years, nearly 75 million
people aged 62 and older will start receiving retirement benefits. The population applying for
benefits will expect SSA to provide a greater number of services electronically. SSA realizes it
needs to rely more on technology to meet customer expectations and keep up with a rising
workload.

Fewer Experienced Staff: As workloads rise, a greater proportion of SSA’s workforce will
become eligible to retire. Of the 63,947 full- and part-time permanent employees on duty as of
October 1, 2012, 22.2 percent was eligible to retire under the regular retirement option in
FY 2013. In FY 2017, 32.7 percent of those employees will be eligible to retire, and, by
FY 2022, this number will increase to 44.9 percent.

Given the expectation of leaner future budgets, SSA needs to plan to meet its mission with fewer
resources. SSA’s ASP for FY 2013 – FY 2016 and its Information Resources Management
Strategic Plan for FY 2012 – FY-2016 are near-term planning documents that do not provide
plans on how SSA will address its challenges over the next 10 to 20 years and beyond. Both the
OIG and Social Security Advisory Board have called for increased long-term planning to address
SSA’s future challenges.

Customer Service Delivery Planning: In our FY 2011 report on The Social Security
Administration’s Customer Service Delivery Plan, we concluded SSA did not have a long-term
customer service delivery plan. We noted that SSA must develop a plan that serves as a roadmap
for ensuring the Agency is technologically and structurally prepared with appropriate staff to
operate its programs in the future. The plan should also describe how the Agency is preparing to
address increased workloads and service delivery in an electronic environment. The plan must
identify what the service delivery environment will be in the future, including what services
customers will expect and how they will want to receive those services. SSA published a Service
Delivery Plan in February 2013, but it did not comprehensively describe the service options it
will offer in the future or the resources needed to do so.

Social Security Advisory Board Report: At a time when SSA needs to plan to do more with
less, the Board believes SSA lacks long-term plans in a number of critical areas. In its March
2011 report, The Social Security Administration: A Vision of the Future - The First Steps on the
Road to 2020, the Social Security Advisory Board concluded that SSA needed to develop an
innovative service delivery plan that reflected the service options currently available and
anticipate those that will emerge in the next 10 years. It recommended that SSA take multiple
steps to ensure success in 2020, including rethinking its service delivery strategy, performing a

FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)        17
comprehensive review of program policy to reduce complexity, establishing a Systems
Modernization Plan, and developing a Human Capital Plan.

IT Strategic Planning: In our June 2009 report on The Social Security Administration’s
Information Technology Strategic Planning, we stated that SSA did not have a comprehensive
Agency Information Infrastructure Plan to meet potential processing needs for the next 20 years
or that would allow the Agency to recover quickly if one or more major component of its
processing infrastructure failed or was destroyed. While SSA has an IT planning process, it is
decentralized, and SSA officials agreed it needed to be strengthened.

AGENCY ACTIONS
SSA has produced multiple planning documents, including those required by the Government
Performance and Results Act of 1993 (GPRA) (Pub. L. No. 103-62) and the GPRA
Modernization Act of 2010 (Pub. L. No. 111-352). These laws mandate that Federal agencies
draft strategic and annual performance plans to help improve service delivery by requiring that
Federal managers plan to meet program objectives. SSA is developing its next ASP for
FYs 2014-2018.

SSA has a number of planning documents. Specifically, SSA has the following strategic and
tactical plans, which are listed on its Budget and Performance Webpage.

•   Agency Conference Reporting
•   Agency Strategic Plan
•   Annual Performance Plan
•   Budget Estimates and Related Information
•   Information Resources Management Strategic Plan
•   Major IT Investments (Exhibit 300s)
•   Performance and Accountability Report
•   Program Evaluations
•   SSA Federal Program Inventory
•   Summary of Performance and Financial Information
•   Sustainability Plan and Scorecard

Of the 11 documents, 10 cover 1 through 5 years. The Agency’s Strategic Sustainability
Performance Plan includes FY 2020 goals, as required per an Executive Order. While this plan
goes beyond a 5-year span, it does not include long-range plans that address SSA’s long-term
challenges, including a rising workload, a decrease in experienced staff, overly complex program
policies, and a rising need to provide more services electronically.




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)         18
Service Delivery Plan: SSA published its Service Delivery Plan in February 2013, which
identified 22 key initiatives for providing the American public with quality service over the next
10 years. The plan highlighted SSA’s commitment to improving (1) services readily used by the
public, (2) the systems it uses to serve the public, and (3) payment accuracy and efficiency of
operations.

More recently, SSA decided not to move forward with the Service Delivery Plan. It is in the
process of developing a new long-term plan with the assistance of the National Academy of
Public Administration. SSA intends to publish the long-range plan in late 2014.

Planning Officers: The Service Delivery Plan, and SSA’s efforts to develop a newer long-term
plan, are positive steps towards having a vision of SSA’s future operations. This, coupled with
the establishment in April 2013 of the Office of the Chief Strategic Officer to oversee all
strategic planning across SSA, should help SSA plan for the next 10 years and beyond, taking
into account customer expectations and available resources.

SSA established the Office of the Chief Strategic Officer to infuse strategic thinking into the
culture, promote innovation, and achieve program performance improvements. The Office will
lead the development of the long-term plan on how the Agency will modernized its services and
operations by 2025, integrating IT, service delivery, and human capital.

SSA also reported that each Deputy Commissioner is developing a multi-year plan to ensure
sustainability and improved effectiveness. Further, each component has been tasked with
looking for ways to streamline SSA’s organizations and operations, maximizing each employee’s
contribution, assessing the management structure, and cultivating a work environment and
culture that fosters innovative approaches.

Most recently, SSA hired a Deputy Chief Information Officer to oversee the Agency’s IT
strategic planning, alignment of IT investments to the Agency’s strategic goals and objectives,
and management of technology spending and capital planning.




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)         19
                                     APPENDICES




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)
Appendix A – RELATED OFFICE OF THE INSPECTOR
             GENERAL REPORTS
    Management Challenge Area, Report Title, and Common
                                                                       Report Issued
                           Identification Number
                    Reduce the Hearings Backlog and Prevent its Recurrence
  Effects of the Senior Attorney Adjudicator Program on
                                                                       June 28, 2013
  Hearing Workloads (A-12-13-23002)
  Overall Processing Times for 2010 Childhood Supplemental
                                                                     February 8, 2013
  Security Income Claims (A-04-12-11230)
  Identifying and Monitoring Risk Factors at Hearing Offices
                                                                     January 24, 2013
  (A-12-12-11289)
  Training and Development of Hearing Office Group
                                                                    December 10, 2012
  Supervisors (A-12-12-11240)



    Management Challenge Area, Report Title, and Common
                                                                         Report Issued
                       Identification Number
                  Improve the Timeliness and Quality of the Disability Process
  The Social Security Administration’s Policy on Symptom
  Validity Tests in Determining Disability Claims                     September 17, 2013
  (A-08-13-23094)
  Bonus Payments Made to California Disability Determination
                                                                      September 11, 2013
  Services’ Employees (A-09-12-21248)
  Administrative Costs Claimed by the Tennessee Disability
                                                                          May 22, 2013
  Determination Services (A-04-12-11298)
  Administrative Costs Claimed by the Arkansas Disability
                                                                          May 8, 2013
  Determination Services (A-06-12-12102)
  Sanctioned Medical Providers and Medical Evidence of
                                                                        February 8, 2013
  Record (A-01-13-23064)
  Administrative Costs Claimed by the Texas Disability
                                                                        February 4, 2013
  Determination Services (A-06-12-11283)
  Congressional Response Report: The Social Security
  Administration’s Disability Research Consortium                       February 1, 2013
  (A-01-13-23051)
  Individuals Hiding Self-Employment Income to Receive
                                                                        January 11, 2013
  Disability Insurance Benefits (A-07-12-11268)
  Personnel Costs and Hiring Practices of the Georgia
                                                                       December 20, 2012
  Disability Adjudication Services (A-04-12-22135)



FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)   A-1
    Management Challenge Area, Report Title, and Common
                                                                            Report Issued
                     Identification Number
  Termination of Disability Benefits Following a Continuing
                                                                          November 1, 2012
  Disability Review Cessation Determination (A-07-12-11211)
  Administrative Costs Claimed by the Connecticut Disability
                                                                           October 18, 2012
  Determination Services (A-01-12-12104)



    Management Challenge Area, Report Title, and Common
                                                                  Report Issued
                      Identification Number
              Reduce Improper Payments and Increase Overpayment Recoveries
  The Social Security Administration’s Plan to Reduce Improper
  Payments Under Executive Order 13520, as Reported in         September 30, 2013
  March 2013 (A-15-13-13105)
  Supplemental Security Income High-error Profile
                                                               September 30, 2013
  Redeterminations (A-07-12-11263)
  Using Bank Data to Identify Supplemental Security Income
                                                                September 5, 2013
  Recipients with Potential Overpayments (A-01-12-11223)
  Payments Resulting from Disability Insurance Actions
  Processed Via Manual Adjustment, Credit and Award               June 28, 2013
  Processes (A-04-11-01114)
  Payments to Individuals Whose Numident Record Contained a
                                                                  June 21, 2013
  Death Entry (A-06-12-11291)
  Timeliness and Accuracy of Death Reporting for Individuals
  Killed During the September 11, 2001 Terrorist Attacks          May 21, 2013
  (A-06-12-21221)
  Adjustment of Disabled Wage Earners’ Benefits at Full
                                                                  May 17, 2013
  Retirement Age (A-09-12-11264)
  Title XVI Deceased Recipients Who Do Not Have Death
                                                                   May 3, 2013
  Information on the Numident (A-09-12-22132)
  Adjustments to Widow’s Benefits at Full Retirement Age
                                                                 March 22, 2013
  (A-01-12-11299)
  Controls over the Issuance of Supplemental Security Income
                                                                 March 21, 2013
  Installment Payments (A-09-11-21194)
  The Social Security Administration’s Compliance with the
  Improper Payments Elimination and Recovery Act of 2010 in
                                                                 March 15, 2013
  the Fiscal Year 2012 Performance and Accountability Report
  (A-15-13-13067)
  Accuracy of Quarterly Wage Data and Their Impact on Social
                                                                 March 12, 2013
  Security Benefits (A-03-12-11213)



FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)     A-2
    Management Challenge Area, Report Title, and Common
                                                                            Report Issued
                       Identification Number
  Dually Entitled Beneficiaries Who Are Subject to the Windfall
  Elimination Provision and Government Pension Offset                      January 31, 2013
  (A-09-12-11210)
  The Social Security Administration’s Reporting of High-Dollar
  Overpayments Under Executive Order 13520 in Fiscal Year                 December 28, 2012
  2012 (A-15-13-13068)
  The Social Security Administration's Development of Earnings
  Alerts for Supplemental Security Income Recipients                      December 20, 2012
  (A-02-11-11185)
  Childhood Disability Beneficiaries with an Incorrect Waiting
                                                                          December 20, 2012
  Period (A-09-11-21158)
  Accumulated Funds Payable to Beneficiaries or Their
                                                                          December 11, 2012
  Representative Payees (A-09-12-21236)
  Deceased Beneficiaries Who Had Different Dates of Death on
  the Social Security Administration’s Numident and Payment               December 10, 2012
  Records (A-09-12-11220)
  Supplemental Security Income Recipients Eligible for, or
                                                                          December 10, 2012
  Receiving, Russian Pensions (A-01-12-21238)
  Supplemental Security Income Applicants with Earnings
  Received After Their Disability Onset Dates and Before                   October 26, 2012
  Favorable Hearing Decisions (A-02-10-20128)
  Supplemental Security Income Recipients Whose Medicare
                                                                           October 12, 2012
  Benefits Were Terminated Due to Death (A-01-11-01135)
  Claimant Representative Fees Paid but Not Withheld from
                                                                           October 5, 2012
  Title II Past-Due Benefits (A-04-11-11102)



    Management Challenge Area, Report Title, and Common
                                                                            Report Issued
                      Identification Number
                                   Improve Customer Service
  Disabled Individuals with Mental Impairments Acting as
                                                                         September 23, 2013
  Representative Payees (A-07-12-21265)
  Protection and Advocacy Agencies’ Reviews of Organizational
                                                                           August 22, 2013
  Representative Payees (A-13-12-12119)
  KDC Income Management, a Fee-for-Service Representative
                                                                           August 22, 2013
  Payee for the Social Security Administration (A-13-13-13013)
  Administrative Law Judge/Public Alleged Misconduct
                                                                             July 9, 2013
  Complaints System (A-05-11-01131)



FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)     A-3
    Management Challenge Area, Report Title, and Common
                                                                            Report Issued
                       Identification Number
  Mosaic, an Organizational Representative Payee for the Social
                                                                             June 7, 2013
  Security Administration (A-07-13-23007)
  Payee Assistance Management, Inc., an Organizational
  Representative Payee for the Social Security Administration              March 27, 2013
  (A-06-12-11261)
  Controls over the Enrollment Process with the Direct
                                                                          December 21, 2012
  Express® Debit Card Program (A-15-12-21273)
  Direct Deposit Changes Initiated Through Financial
  Institutions and the Social Security Administration’s Internet          December 20, 2012
  and Automated 800-Number Applications (A-14-12-21271)
  Congressional Response Report: The Social Security
  Administration’s Compliance with Equal Employment                       December 11, 2012
  Opportunity Commission Decisions (A-13-12-22143)
  Genesis Eldercare Catonsville Commons, an Organizational
  Representative Payee for the Social Security Administration             December 10, 2012
  (A-13-12-11267)
  Benefit Payments Managed by Representative Payees of
  Children in Pennsylvania’s State Foster Care Programs                   December 4, 2012
  (A-13-12-11245)



    Management Challenge Area, Report Title, and Common
                                                                       Report Issued
                      Identification Number
                      Invest in Information Technology Infrastructure to
                            Support Current and Future Workloads
  Access to Social Security Administration Data at the Disability
                                                                      January 29, 2013
  Determination Services (A-15-11-01127)
  The Social Security Administration’s Compliance with the
  Federal Information Security Management Act of 2002 for           November 15, 2012
  Fiscal Year 2012 (A-14-12-12120)



    Management Challenge Area, Report Title, and Common
                                                                         Report Issued
                      Identification Number
            Strengthen the Integrity and Protection of the Social Security Number
  Social Security Numbers on Notices in the Online Retrieval
                                                                      September 27, 2013
  System (A-02-13-13040)
  Potential Misuse of Foster Children’s Social Security Numbers
                                                                      September 25, 2013
  (A-08-12-11253)

FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)     A-4
    Management Challenge Area, Report Title, and Common
                                                                            Report Issued
                      Identification Number
  Employers Who Report Wages with Significant Errors in the
                                                                            August 9, 2013
  Employee Name and Social Security Number (A-08-12-13036)
  Access Controls for the Social Security Number Verification
                                                                            April 18, 2013
  Service (A-03-12-11204)
  Noncitizens Issued Multiple Social Security Numbers
                                                                          December 10, 2012
  (A-06-10-20155)
  Monitoring Controls for the Consent Based Social Security
                                                                           October 25, 2012
  Number Verification Program (A-03-12-11201)
  Beneficiaries Incorrectly Identified as Prisoners
                                                                           October 3, 2012
  (A-01-11-01120)
  Accuracy of the Social Security Administration’s Numident
                                                                           October 3, 2012
  (A-08-12-11280)



    Management Challenge Area, Report Title, and Common
                                                                      Report Issued
                       Identification Number
                            Improve Transparency and Accountability
   Security Fence Around Social Security Administration
                                                                    September 27, 2013
  Headquarters (A-15-13-23096)
  Social Security Administration Employees in the Military
                                                                    September 23, 2013
  (A-01-13-13083)
  The Social Security Administration’s Contract with Four, LLC
                                                                     August 27, 2013
  (A-04-13-13046)
  Single Audit of the State of New Mexico Public Education
  Department for the Fiscal Year Ended June 30, 2011                  August 7, 2013
  (A-77-13-00013)
  The Social Security Administration’s Contract with
                                                                      June 14, 2013
  Compuware Corporation (A-13-12-11297)
  Westat Contract Close Out on Contract Number
                                                                      June 13, 2013
  SS00-05-60072 (A-15-12-22118)
  Single Audit of the State of Arizona for the Fiscal Year Ended
                                                                      June 10, 2013
  June 30, 2011 (A-77-13-00012)
  Single Audit of the Commonwealth of Pennsylvania for the
                                                                      May 24, 2013
  Fiscal Year Ended June 30, 2011 (A-77-13-00011)
  Single Audit of the State of Tennessee for the Fiscal Year
                                                                       May 7, 2013
  Ended June 30, 2011 (A-77-13-00010)
  Single Audit of the State of Ohio for the Fiscal Year Ended
                                                                       May 3, 2013
  June 30, 2011 (A-77-13-00009)


FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)     A-5
    Management Challenge Area, Report Title, and Common
                                                                            Report Issued
                       Identification Number
  Congressional Response Report: The Social Security
  Administration’s Implementation and Compliance with Energy                April 30, 2013
  Conservation Policies (A-15-13-32104)
  The Social Security Administration’s Internal Controls over
  Issuing and Monitoring Contractors’ Homeland Security                     April 18, 2013
  Presidential Directive-12 Credentials (A-15-11-11178)
  Performance Indicator Audit: Disability Claims
                                                                             April 3, 2013
  (A-15-12-12116)
  Single Audit of the State of Colorado for the Fiscal Year Ended
                                                                             April 2, 2013
  June 30, 2011 (A-77-13-00008)
  Single Audit of the State of New Jersey for the Fiscal Year
                                                                           March 21, 2013
  Ended June 30, 2011 (A-77-13-00007)
  Single Audit of the State of Iowa for the Fiscal Year Ended
                                                                           March 13, 2013
  June 30, 2011 (A-77-13-00006)
  Performance Indicator Audit: Hearing Requests
                                                                          February 27, 2013
  (A-15-12-12115)
  Single Audit of the State of Wisconsin for the Fiscal Year
                                                                          February 27, 2013
  Ended June 30, 2011 (A-77-13-00005)
  Single Audit of the State of North Carolina for the Fiscal Year
                                                                          February 26, 2103
  Ended June 30, 2011 (A-77-13-00003)
  Single Audit of the State of Nebraska for the Fiscal Year Ended
                                                                          February 26, 2013
  June 30, 2011 (A-77-13-00004)
  Congressional Response Report: Interagency Agreements with
  the Office of Personnel Management for Administrative Law               February 14, 2013
  Judge Services (A-05-12-22144)
  Single Audit of the State of Oklahoma for the Fiscal Year
                                                                           February 7, 2013
  Ended June 30, 2011 (A-77-13-00002)
  Single Audit of the Hawaii Department of Human Services for
                                                                           January 25, 2013
  the Fiscal Year Ended June 30, 2011 (A-77-13-00001)
  Controls over Direct Deposit Changes Initiated in Field
                                                                           January 23, 2013
  Offices (A-06-12-22101)
  Congressional Response Report: Memorandum of
  Understanding Between the General Services Administration
                                                                          December 28, 2012
  and the Social Security Administration for Space and Service
  (A-15-13-23043)
  Controls over Payments Made to Claimant Representatives at
                                                                          December 4, 2012
  the Hearings Level (A-05-12-11239)
  Fiscal Year 2012 Inspector General Statement on the Social
  Security Administration’s Major Management and                          November 8, 2012
  Performance Challenges (A-02-13-13041)


FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)     A-6
    Management Challenge Area, Report Title, and Common
                                                                            Report Issued
                      Identification Number
  The Social Security Administration’s Financial Report for
                                                                          November 8, 2012
  Fiscal Year 2012 (A-15-12-11286)



  Management Challenge Area, Report Title, and Common
                                                                      Report Issued
  Identification Number
                          Strengthen Strategic and Tactical Planning
  Single Decisionmaker Model—Authority to Make Certain
  Disability Determinations Without a Medical Consultant’s            August 8, 2013
  Signature (A-01-12-11218)
  Child Support and the Supplemental Security Income Program
                                                                       July 25, 2013
  (A-01-12-11219)
  Impact of Increases in State Unemployment Rates on the Social
  Security Administration’s Disability Programs                        July 16, 2013
  (A-07-12-11209)
  National Support Center Cost Savings (A-14-12-12107)               March 29, 2013
  Hearing Office Case Rotation Among Administrative Law
                                                                     March 14, 2013
  Judges (A-12-12-11274)
  Usefulness of Department of Homeland Security Travel Data
  to Identify Supplemental Security Income Recipients Who Are        February 1, 2013
  Outside the United States (A-01-11-01142)




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)    A-7
Appendix B – MAJOR CONTRIBUTORS

                                             Reduce the Hearings Backlog and Prevent its
Walter Bayer, Director
                                             Recurrence

                                             Improve the Timeliness and Quality of the Disability
Mark Bailey, Director
                                             Process

Ron Gunia, Director                          Reduce Improper Payments and Increase
Judith Oliveira, Director                    Overpayment Recoveries

Jim Klein, Director
                                             Improve Customer Service
Shirley Todd, Director

                                             Invest in Information Technology Infrastructure to
Jeff Brown, Director
                                             Support Current and Future Workloads

Theresa Roberts, Director                    Strengthen the Integrity and Protection of the Social
Cylinda McCloud-Keal, Director               Security Number


Victoria Vetter, Director                    Improve Transparency and Accountability


Tim Nee, Director                            Strengthen Strategic and Tactical Planning




FY 2013 IG Statement on SSA’s Major Management and Performance Challenges (A-02-14-14056)      B-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
